                                              EMPLOYMENT STANDARDS
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              DISTRICT OF COLUMBIA WORKMEN’S
                                              COMPENSATION ACT SPECIAL FUND
                                              FINANCIAL STATEMENTS AND
                                              INDEPENDENT AUDITORS’ REPORT
                                              September 30, 2005 and 2004




                                                This report was prepared by M.D. Oppenheim & Company, P.C., under
                                                contract to the U.S. Department of Labor, Office of Inspector General, and
                                                by acceptance, it becomes a report of the Office of Inspector General.




                                                                                         ___________________________
                                                                                       Assistant Inspector General for Audit




                                                                          Date Issued: September 21, 2006
                                                                          Report Number: 22-06-009-04-432
                                           DCCA Financial Statements and Independent Auditors’ Report


Table of Contents

Independent Auditors’ Report.................................................................................... 3


District of Columbia Workmen’s Compensation Act Special Fund
 Financial Statements ................................................................................................ 7


    •   Management’s Discussion and Analysis....................................................... 10


    •   Balance Sheets ................................................................................................ 15


    •   Statements of Net Cost .................................................................................. 16


    •   Statements of Changes in Net Position......................................................... 17


    •   Statements of Budgetary Resources............................................................ 18


    •   Statements of Financing ................................................................................. 19


    •   Notes to the Financial Statements ................................................................ 20




Prepared by M.D. Oppenheim & Company, P.C., for the                                                                    1
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-009-04-432
DCCA Financial Statements and Independent Auditors’ Report




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-06-009-04-432
                                  DCCA Financial Statements and Independent Auditors’ Report




                             Independent Auditors’ Report


  Ms. Victoria Lipnic, Assistant Secretary
  Employment Standards Administration
  U.S. Department of Labor

  The Chief Financial Officers Act of 1990 (CFO Act) requires agencies to report
  annually to Congress on their financial status and any other information needed to
  fairly present the agencies’ financial position and results of operations. The District of
  Columbia Workmen’s Compensation Act Special Fund (the Fund) is included in the
  U.S. Department of Labor (DOL) annual financial statements issued to meet the CFO
  Act reporting requirements. In addition, the District of Columbia Workmen’s
  Compensation Act requires that an annual report be made to Congress on the
  financial status of the Fund.

  The objectives of our audits are to express an opinion on the fair presentation of the
  Fund’s financial statements, obtain an understanding of the Fund’s internal control,
  and test compliance with laws and regulations that could have a direct and material
  effect on the financial statements.

  We have audited the balance sheets of the Fund as of September 30, 2005 and 2004
  and the related statements of net cost, changes in net position, budgetary resources,
  and financing for the years then ended. These financial statements are the
  responsibility of the Fund’s management. Our responsibility is to express an opinion
  on these financial statements based on our audits.

  We conducted our audits in accordance with auditing standards generally accepted in
  the United States of America; the standards applicable to financial audits contained in
  Government Auditing Standards, issued by the Comptroller General of the United
  States; and Office of Management and Budget (OMB) Bulletin No. 01-02, Audit
  Requirements for Federal Financial Statements. Those standards require that we
  plan and perform the audit to obtain reasonable assurance about whether the
  financial statements are free of material misstatements.




Prepared by M.D. Oppenheim & Company, P.C., for the                                      3
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-009-04-432
DCCA Financial Statements and Independent Auditors’ Report

An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting
principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation. We believe that our audits provide a
reasonable basis for our opinion.

Opinion on Financial Statements

In our opinion the financial statements referred to above present fairly, in all material
respects, the assets, liabilities, and net position of the Fund as of September 30, 2005
and 2004; and the net cost, changes in net position, budgetary resources, and
reconciliation of net cost to budgetary resources for the years then ended in conformity
with accounting principles generally accepted in the United States of America.

Other Accompanying Information

Our audits were conducted for the purpose of forming an opinion on the Fund’s financial
statements taken as a whole. The information included in the Management Discussion
and Analysis section of the Fund’s annual financial statements is not a required part of
the principal financial statements. The information is required by the Federal
Accounting Standards Advisory Board and OMB Bulletin 01-09. We have applied
certain limited procedures, which consisted principally of inquiries of management
regarding the methods of measurement and presentation of the information. However,
we did not audit the information and express no opinion on it.

Report on Internal Control

In planning and performing our audits, we considered the Fund’s internal control over
financial reporting by obtaining an understanding of the Fund’s internal control,
determined whether these internal controls had been placed in operation, assessed
control risk, and performed tests of controls in order to determine our auditing
procedures for the purpose of expressing our opinion on the financial statements. We
limited our internal control testing to those controls necessary to achieve the objectives
described in OMB Bulletin No. 01-02. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act
of 1982, such as those controls relevant to ensuring efficient operations. The objective
of our audits was not to provide assurance on internal control. Consequently, we do not
provide an opinion on internal control.

Our consideration of the internal control over financial reporting would not necessarily
disclose all matters in the internal control over financial reporting that might be
reportable conditions.



4                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-06-009-04-432
                                  DCCA Financial Statements and Independent Auditors’ Report

Under standards issued by the American Institute of Certified Public Accountants,
reportable conditions are matters coming to our attention relating to significant
deficiencies in the design or operation of the internal control that, in our judgment, could
adversely affect the agency’s ability to record, process, summarize, and report financial
data consistent with the assertions by management in the financial statements. Material
weaknesses are reportable conditions in which the design or operation of one or more
of the internal control components does not reduce to a relatively low level the risk that
misstatements caused by error or fraud in amounts that would be material in relation to
the financial statements being audited may occur and not be detected within a timely
period by employees in the normal course of performing their assigned functions.
Because of inherent limitations in internal controls, misstatements, losses, or
noncompliance may, nevertheless, occur and not be detected. We noted a certain
matter, discussed in the following paragraphs, involving the internal control and its
operations that we consider to be a reportable condition. However, we also believe the
reportable condition is a material weakness.

With respect to internal control related to performance measures included in the
Management Discussion and Analysis, we obtained an understanding of the design of
significant internal controls relating to the existence and completeness assertions as
required by OMB Bulletin No. 01-02. Our procedures were not designed to provide
assurance on internal control over reported performance measures, and accordingly,
we do not provide an opinion on such controls.

Material Weakness

Weaknesses Noted Over DCCA Accounting
The Employment Standards Administration (ESA) Office of Management,
Administration, and Planning (OMAP) performs the accounting for the District of
Columbia Workmen’s Compensation Act Special Fund. These accounting procedures
include entering transactions in the DOLAR$ general ledger and reconciling accounts.
Many of these transactions are entered in DOLAR$ as monthly summary journal entries
from various subsidiary records. In FY 2005, we noted several instances when the
accounting for these activities was not performed timely, completely, or accurately.
OMB Circular A-127 requires agency financial systems to provide reliable and timely
information.

Additionally, ESA did not have a formal process to reconcile the DCCA benefit payment
subsidiary system with amounts reported to Treasury and recorded in the DOLAR$
general ledger. Although the OCFO performs Funds with Treasury reconciliations, the
reconciliations are based on amounts recorded in the general ledger and do not include
the detailed payment history databases included in the subsidiary system. Without a
complete and formal reconciliation process, management cannot ensure that its
payment subsidiary systems are in agreement with the actual payments reported and
reconciled to Treasury.

Prepared by M.D. Oppenheim & Company, P.C., for the                                      5
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-009-04-432
DCCA Financial Statements and Independent Auditors’ Report

These accounting and reconciliation problems arose because there was a significant
employee turnover in OMAP, and ESA did not have sufficiently detailed or
comprehensive written procedures to enable new staff to perform the required activities
in an accurate and timely manner.

We recommend that the Chief Financial Officer and the Assistant Secretary for
Employment Standards: ensure that OMAP develops adequate detailed written
procedures that address all significant aspects of its accounting and financial
management; the OMAP implements a human resource transition/succession plan
which includes a description of key positions and detailed written procedures for the
duties assigned to the position; and ensure that OMAP and OWCP develop and
implement reconciliation procedures for the benefit payment histories and the SF-224,
FMS 6653 and the DOLAR$ general ledger. Management generally concurs and has
begun taking steps to address these recommendations.

Report on Compliance with Laws and Regulations

The management of the Fund is responsible for complying with laws and regulations
applicable to the Fund. As part of obtaining reasonable assurance about whether the
Fund’s financial statements are free of material misstatement, we performed tests of its
compliance with certain provisions of laws and regulations, noncompliance with which
could have a direct and material effect on the determination of financial statement
amounts and certain other laws and regulations specified in OMB Bulletin No. 01-02.
We limited our tests of compliance to these provisions, and we did not test compliance
with all laws and regulations applicable to the Fund. Providing an opinion on
compliance with those provisions was not an objective of our audit and, accordingly, we
do not express such an opinion.

The results of our tests of compliance with laws and regulations, described in the
preceding paragraph, disclosed no instances of noncompliance that are required to be
reported under Government Auditing Standards or OMB Bulletin No. 01-02.

This report is intended solely for the information of the management of the District of
Columbia Workmen’s Compensation Act Special Fund and U.S. Department of Labor,
the Office of Management and Budget, and the Congress, and is not intended to be and
should not be used by anyone other than these specified parties.




July 10, 2006




6                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-06-009-04-432
                                  DCCA Financial Statements and Independent Auditors’ Report




                   U. S. DEPARTMENT OF LABOR
              EMPLOYMENT STANDARDS ADMINISTRATION




   DISTRICT OF COLUMBIA WORKMEN’S
    COMPENSATION ACT SPECIAL FUND
         FINANCIAL STATEMENTS
       SEPTEMBER 30, 2005 AND 2004




              Office of Management, Administration and Planning
                       Division of Financial Management




M.D. Oppenheim & Company, P.C., for the                                                   7
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-009-04-432
DCCA Financial Statements and Independent Auditors’ Report




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




8                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                        U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 22-06-009-04-432
                                           DCCA Financial Statements and Independent Auditors’ Report

                                  DISTRICT OF COLUMBIA WORKMEN’S
                                   COMPENSATION ACT SPECIAL FUND

                                            TABLE OF CONTENTS


                                                                                             PAGE

ACRONYMS                                                                                               ii

MANAGEMENT’S DISCUSSION AND ANALYSIS

 Mission and Organizational Structure                                                          I- 1
 Financial Highlights                                                                          I- 1
 Internal Controls and Systems                                                                 I- 2
 Known Risks and Uncertainties                                                                 I -2
 Limitations of the Financial Statements                                                       I- 3

FINANCIAL STATEMENTS

 Balance Sheets                                                                               II   -   1
 Statements of Net Cost                                                                       II   -   2
 Statements of Changes in Net Position                                                        II   -   3
 Statements of Budgetary Resources                                                            II   -   4
 Statements of Financing                                                                      II   -   5

NOTES TO THE FINANCIAL STATEMENTS

 Note 1 - Summary of Significant Accounting Policies                                         III   -   1
 Note 2 - Funds with U.S. Treasury                                                           III   -   3
 Note 3 - Investments                                                                        III   -   3
 Note 4 - Accounts Receivable, Net                                                           III   -   4
 Note 5 – Other Liabilities                                                                  III   -   5
 Note 6 – Statement of Budgetary Resources                                                   III   -   5




                                                       i




M.D. Oppenheim & Company, P.C., for the                                                                9
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-009-04-432
DCCA Financial Statements and Independent Auditors’ Report

                                 DISTRICT OF COLUMBIA WORKMEN’S
                                  COMPENSATION ACT SPECIAL FUND

                                                 ACRONYMS




DCCA District of Columbia Workmen’s Compensation Act Special Fund

DLHWCDivision of Longshore and Harbor Workers’ Compensation

DOL             Department of Labor

ESA             Employment Standards Administration

FASAB           Federal Accounting Standards Advisory Board

FMFIA           Federal Managers' Financial Integrity Act

FY              Fiscal Year

JFMIP           Joint Financial Management Improvement Project

LHWCALongshore Harbor Workers’ Compensation Act

OMB             Office of Management and Budget

OWCP            Office of Workers’ Compensation Programs

U.S.C.          United States Code




                                                        ii




10                                                            M.D. Oppenheim & Company, P.C., for the
                                                  U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 22-06-009-04-432
                                  DCCA Financial Statements and Independent Auditors’ Report




                         U. S. DEPARTMENT OF LABOR

              EMPLOYMENT STANDARDS ADMINISTRATION

                          District of Columbia Workmen’s
                          Compensation Act Special Fund




                                   SECTION I

              MANAGEMENT’S DISCUSSION
                              AND ANALYSIS




                                    Fiscal Year 2005
                                  Financial Statements




M.D. Oppenheim & Company, P.C., for the                                                 11
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-009-04-432
DCCA Financial Statements and Independent Auditors’ Report

                                    DISTRICT OF COLUMBIA WORKMEN’S
                                     COMPENSATION ACT SPECIAL FUND

                                MANAGEMENT’S DISCUSSION AND ANALYSIS
                                        SEPTEMBER 30, 2005

MISSION AND ORGANIZATIONAL STRUCTURE

Two Special Funds are administered by the Office of Workers’ Compensation Program (OWCP) under section 44 of the
Longshore Harbor Workers’ Compensation Act (LHWCA); the Longshore Act Special Fund created under the original
Act in 1927 and the Special Fund under the District of Columbia Workmen’s Compensation Act of 1928 (DCCA).
These Funds were established for the primary purpose of equitably distributing among all employers the liabilities
associated with second injury claims (a “second injury” is an injury to a worker which, in combination with an existing
permanent partial impairment, results in the worker’s increased permanent disability or death).

Organizationally the DCCA Fund is administered by the Employment Standards Administration (ESA) Division of
Longshore and Harbor Workers’ Compensation program (DLHWC) whose mission is to effectively administer a
program of compensation and medical benefits to covered workers who are injured on the job or suffer from
occupational disease. The DLHWC has direct responsibility for all aspects of the administration of the Fund.

The Fund supports the program mission by providing compensation, and in certain cases, medical care payments to
District of Columbia employees for work related injuries or death. Effective July 26, 1982, the District of Columbia
became responsible for administration and operation of a separate special fund to cover post July 26, 1982, injury cases.

The DCCA provides medical benefits, compensation for lost-wages and rehabilitation services for job-related injuries,
diseases or death of certain private-sector workers in the District of Columbia. Generally, benefits are paid directly from
private funds by an authorized self-insured employer or through an authorized insurance carrier. Cases meeting the
requirements of the Longshore and Harbor Workers’ Compensation statute as extended to the District of Columbia Act
of 1928 are paid from the Fund comprised primarily of employer contributions (assessments) and administered by the
DLHWC. In FY 2005, 638 workers (customers) received compensation benefits from the Fund.

Additionally, the District of Columbia Workmen’s Compensation Act [Section 10(h)] provides annual wage increase
compensation (cost of living adjustments). Fifty percent of this annual wage increase for pre-1972 compensation cases is
paid by Federal appropriated funds, and fifty percent is paid by the Fund through the annual assessment. Appropriated
funding for 10(h) is not reflected in the accompanying financial statements.

Although the Fund is administered by the Secretary of Labor, the U.S. Treasury is the Custodian, holding the funds in
trust. The Fund is not property of the United States, but can only be disbursed as specified in Section 44(i) of the
Longshore Act. Administrative services for operating the Fund are provided by the ESA through direct Federal
Appropriations. Appropriated funding for administrative services is not reflected in the accompanying financial
statements.

FINANCIAL HIGHLIGHTS

The majority of the revenue of the Fund is generated through annual recurring assessments paid by self-insured
employers and insurance carriers and totaled $11,427,419 in FY 2005. This compares with assessment revenue of
$10,351,670 for FY 2004. In addition, investment income for the Fund was $62,554 for FY 2005 compared to $30,582
for FY 2004. The average interest rate earned during FY 2005 was 2.50 percent compared to 1.12 percent for FY 2004.



                                                           I-1




12                                                                M.D. Oppenheim & Company, P.C., for the
                                                      U.S. Department of Labor—Office of Inspector General
                                                                          Report Number: 22-06-009-04-432
                                              DCCA Financial Statements and Independent Auditors’ Report

                                      DISTRICT OF COLUMBIA WORKMEN’S
                                       COMPENSATION ACT SPECIAL FUND

                                 MANAGEMENT’S DISCUSSION AND ANALYSIS
                                         SEPTEMBER 30, 2005

FINANCIAL HIGHLIGHTS - Continued

The Fund’s costs remained relatively stable compared to FY 2004; $10,574,792 for FY 2005 compared to $10,816,252
for FY 2004. Proceeds of the Fund are used for payments under: section 8(f) for second injury claims; section 10(h) for
initial and subsequent annual adjustments in compensation for permanent total disability or related death from injuries
which occurred prior to the effective date of the 1972 LHWCA amendments; and section 18(b) for compensation to
injured workers in cases of employer default.

INTERNAL CONTROLS AND SYSTEMS

The Longshore and Harbor Workers’ Compensation Division’s Branch of Financial Management and Insurance is a very
small unit comprised of six employees and one supervisor, all working in very close proximity to each other. Much of
the oversight, evaluation, monitoring, and control and almost all of the supervisory activity is informal, done on a face-
to-face basis. Similarly, each of the district offices is in itself a small unit, operating in the same fashion as the Branch of
Financial Management and Insurance.

Cases paid by the Special Fund are paid as a result of a formal Compensation Order issued by a District Director or
Administrative Law Judge, setting forth precisely what payment is due and to whom the payment is due. Each new case
coming in for Special Fund payment is prepared and reviewed by a total of five different employees before payment is
made, thus insuring accuracy.

Monthly cash statements, monthly case management reports, quarterly review processes, biweekly payment summaries,
the SF-224 report and statement of differences all provide current, reliable, and accurate information.

Management communicates all procedural, policy, and operating goals to staff by means of weekly staff meetings, a
written procedure manual, frequent e-mail communication, and frequent individual communications regarding changes,
problems and issues.

KNOWN RISKS AND UNCERTANTIES

One known risk is because the DCCA Fund is assessed one year at a time for current expenses, there is no reserve for
future Fund obligations. In keeping with the requirement of section 44 of the Longshore Act, obligations are paid as they
are incurred. Another known risk is that benefit payments are concentrated among a relatively few insurance carriers
and self insured employer’s. For example, the top 9 insurance carriers and self-insured employer’s alone pay over 63%
of District of Columbia assessments. Taken together, these two factors could indicate future problems if one or more of
the largest payers become insolvent and unable to pay their assessment obligations. Temporary collection issues could
result, necessitating special, unscheduled assessments or other actions to keep the Special Fund funded for current
liabilities.

In addition, an insurance company group that is currently insolvent and being operated by the State of Illinois Insurance
Department is responsible for nearly 20% of the total District of Columbia assessment. If these carriers go into
liquidation and stop paying their assessment, this would precipitate a collection crisis for the District of Columbia
assessment. This situation is exacerbated by the fact that since the District of Columbia Workmen’s Compensation Act
of 1928 has been repealed and the DC Special Fund only assesses based on payments in cases that arose prior to July 26,
1982, the annual Special Fund assessment is assessed against a shrinking base of industry payments.

                                                             I-2




M.D. Oppenheim & Company, P.C., for the                                                                                    13
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-009-04-432
DCCA Financial Statements and Independent Auditors’ Report

                                     DISTRICT OF COLUMBIA WORKMEN’S
                                      COMPENSATION ACT SPECIAL FUND

                                 MANAGEMENT’S DISCUSSION AND ANALYSIS
                                         SEPTEMBER 30, 2005


LIMITATIONS OF THE FINANCIAL STATEMENTS

The following limitations are part of the financial statements:

         -   The financial statements have been prepared to report the financial position and results of operations of the
             entity, pursuant to the requirements of the Chief Financial Officers Act of 1990, U.S.C. 3515 (b).

         -   While the statements have been prepared from the books and records of the Fund in accordance with the
             formats prescribed by OMB, the statements are different from the financial reports used to monitor and
             control budgetary resources which are prepared from the same books and records.

         -   The statements should be read with the realization that they are for a component of the U.S. Government, a
             sovereign entity, that liabilities cannot be liquidated without the enactment of an appropriation, and that the
             payment of all liabilities other than for contracts can be abrogated by the sovereign entity.




                                                            I–3



14                                                                 M.D. Oppenheim & Company, P.C., for the
                                                       U.S. Department of Labor—Office of Inspector General
                                                                           Report Number: 22-06-009-04-432
                                  DCCA Financial Statements and Independent Auditors’ Report




                         U. S. DEPARTMENT OF LABOR

              EMPLOYMENT STANDARDS ADMINISTRATION

                          District of Columbia Workmen’s
                          Compensation Act Special Fund




                                  SECTION II

                  FINANCIAL STATEMENTS




                              Fiscal Year 2005 and 2004
                                 Financial Statements




M.D. Oppenheim & Company, P.C., for the                                                 15
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-009-04-432
DCCA Financial Statements and Independent Auditors’ Report

                                DISTRICT OF COLUMBIA WORKMEN’S
                                COMPENSATION ACT SPECIAL FUND
                                         BALANCE SHEETS

                                     As of September 30, 2005 and 2004




                                                                              2005            2004


ASSETS

  Intra-governmental assets
    Funds with U.S. Treasury (Note 2)                                    $   2,066,020   $       2,267
    Investments (Note 3)                                                     3,000,000       5,006,944
      Total intra-governmental assets                                        5,066,020       5,009,211

  Accounts receivable, net of allowance (Note 4)                              384,027         279,659

Total assets                                                             $   5,450,047   $   5,288,870


LIABILITIES AND NET POSITION

Liabilities
  Accrued benefits payable                                               $     251,997   $     282,550
  Deferred revenue                                                           2,783,452       2,761,461
  Other liabilities (Note 5)                                                   471,948       1,217,390

Total liabilities                                                            3,507,397       4,261,401

Net position
 Cumulative results of operations                                            1,942,650       1,027,469

Total liabilities and net position                                       $   5,450,047   $   5,288,870




The accompanying notes are an integral part of these statements.

                                                     II - 1



16                                                             M.D. Oppenheim & Company, P.C., for the
                                                   U.S. Department of Labor—Office of Inspector General
                                                                       Report Number: 22-06-009-04-432
                                            DCCA Financial Statements and Independent Auditors’ Report

                                   DISTRICT OF COLUMBIA WORKMEN’S
                                   COMPENSATION ACT SPECIAL FUND

                                        STATEMENTS OF NET COST
                               For the Years Ended September 30, 2005 and 2004




                                                                             2005            2004


SPECIAL FUND NET COST OF OPERATIONS

With the public
Second injury compensation, Section 8(f)                                $   9,787,312   $    9,978,628
Wage increase compensation, Section 10(h)                                     598,929          648,264
Compensation payment for self-insurer in default, Section 18(b)               188,551          189,360

Net cost of operations                                                  $ 10,574,792    $   10,816,252




The accompanying notes are an integral part of these statements.

                                                        II - 2




M.D. Oppenheim & Company, P.C., for the                                                                  17
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-009-04-432
DCCA Financial Statements and Independent Auditors’ Report

                               DISTRICT OF COLUMBIA WORKMEN’S
                               COMPENSATION ACT SPECIAL FUND

                           STATEMENTS OF CHANGES IN NET POSITION
                            For the Years Ended September 30, 2005 and 2004




                                                                          2005               2004


CUMULATIVE RESULTS OF OPERATIONS

Cumulative results of operations, beginning                        $    1,027,469     $    1,461,469

Budgetary financing sources:
 Non-exchange revenues:
   Investment interest                                                     62,554             30,582
   Assessments                                                         11,427,419         10,351,670

Total non-exchange revenues                                            11,489,973         10,382,252

  Net cost of operations                                               (10,574,792)       (10,816,252)

Net position, end of period                                        $    1,942,650     $    1,027,469




The accompanying notes are an integral part of these statements.

                                                    II - 3




18                                                           M.D. Oppenheim & Company, P.C., for the
                                                 U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 22-06-009-04-432
                                         DCCA Financial Statements and Independent Auditors’ Report

                                 DISTRICT OF COLUMBIA WORKMEN’S
                                 COMPENSATION ACT SPECIAL FUND

                             STATEMENTS OF BUDGETARY RESOURCES
                             For the Years Ended September 30, 2005 and 2004




                                                                           2005             2004


  BUDGETARY RESOURCES

    Budgetary authority:
     Appropriations received                                         $   10,674,005   $   10,803,721
    Unobligated balance:
     Beginning of period                                                  4,719,538        4,723,019

    Total budgetary resources                                        $   15,393,543   $   15,526,740


  STATUS OF BUDGETARY RESOURCES

    Obligations incurred (Note 6)
     Direct                                                          $   10,577,595   $   10,807,202
    Unobligated balances - available
     Other available                                                      4,815,948        4,719,538

    Total status of budgetary resources                              $   15,393,543   $   15,526,740


  RELATIONSHIP OF OBLIGATIONS TO OUTLAYS

    Obligated balance, net, beginning                                $     282,551    $     175,278
    Obligated balance, net, ending
     Accounts payable                                                      251,997          282,551
    Outlays:
     Disbursements                                                       10,608,148       10,699,924

    Net outlays                                                      $   10,608,148   $   10,699,924




  The accompanying notes are an integral part of these statements.

                                                      II - 4



M.D. Oppenheim & Company, P.C., for the                                                                19
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-009-04-432
DCCA Financial Statements and Independent Auditors’ Report

                               DISTRICT OF COLUMBIA WORKMEN’S
                               COMPENSATION ACT SPECIAL FUND

                                    STATEMENTS OF FINANCING
                            For the Years Ended September 30, 2005 and 2004




                                                                         2005              2004


 RESOURCES USED TO FINANCE ACTIVITIES

  Obligations incurred                                              $ 10,577,595      $ 10,807,202
 Total resources used to finance activities                           10,577,595        10,807,202

 COMPONENTS OF THE NET COST OF OPERATIONS
  THAT WILL NOT REQUIRE OR GENERATE
  RESOURCES IN THE CURRENT PERIOD

  Components not requiring or generating resources
    Revaluation of assets and liabilities                                 (6,469)            4,812
    Benefit overpayments                                                   3,666             4,238
 Total components of net cost of operations that will not
  Require or generate resources in the current period                     (2,803)            9,050

 Net cost of operations                                             $ 10,574,792      $ 10,816,252




 The accompanying notes are an integral part of these statements.

                                                     II - 5




20                                                           M.D. Oppenheim & Company, P.C., for the
                                                 U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 22-06-009-04-432
                                  DCCA Financial Statements and Independent Auditors’ Report




                         U. S. DEPARTMENT OF LABOR

              EMPLOYMENT STANDARDS ADMINISTRATION

                          District of Columbia Workmen’s
                          Compensation Act Special Fund




                                 SECTION III

                             NOTES TO THE
                  FINANCIAL STATEMENTS




                              Fiscal Year 2005 and 2004
                                 Financial Statements




M.D. Oppenheim & Company, P.C., for the                                                 21
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-009-04-432
DCCA Financial Statements and Independent Auditors’ Report

                                    DISTRICT OF COLUMBIA WORKMEN’S
                                     COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2005 and 2004


NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

The principal accounting policies which have been followed by the Fund in preparing the accompanying financial
statements are set forth below.

A.       Reporting Entity

These financial statements present the financial position, net cost of operations, changes in net position, budgetary
resources financing activities of the District of Columbia Workmen’s Compensation Act Special Fund (Fund). The Fund
is administered by the Employment Standards Administration (ESA) which is an agency within the United States
Department of Labor. Within ESA, the Division of Longshore and Harbor Workers' Compensation has direct
responsibility for administration of the Fund. The Fund offers compensation, and in certain cases, medical care
payments to District of Columbia employees for work related injuries or death. Effective July 26, 1982, the District of
Columbia Workmen’s Compensation Act was amended whereby the Mayor of the District of Columbia became
responsible for administration and operation of a separate special fund to cover post July 26, 1982, injury cases.

Additionally, the District of Columbia Workmen’s Compensation Act Section 10(h) provides annual wage increase
compensation (cost of living adjustments). Fifty percent of this annual wage increase for pre-1972 compensation cases is
paid by Federal appropriated funds and fifty percent is paid by the Fund through the annual assessment. Appropriated
funding for 10(h) is not reflected in the accompanying financial statements. Also, these financial statements do not
include the Special Fund administered by the Mayor of the District of Columbia for injury cases occurring after July 26,
1982.

B.       Basis of Accounting and Presentation

These financial statements present the financial position, net cost of operations, changes in net position, budgetary
resources and financing activities of the Fund, in accordance with accounting principles generally accepted in the
United States of America and the form and content requirements of OMB Circular A-136. These financial
statements have been prepared from the books and records of the Fund. These financial statements are not intended
to present, and do not present, the full cost of the District of Columbia Workmen’s Compensation (DCCA) program
administered under the Longshore and Harbor Workers’ Compensation Act Program (Longshore Program). In
addition to the Fund costs presented in these statements, the full cost of the DCCA portion of the Longshore
Program would include certain direct costs of ESA in the form of salaries and expenses for administration of the
Longshore Program and allocated costs of ESA and other DOL agencies incurred in support of the Longshore
Program. The full cost of the DCCA portion of the Longshore Program is included in the Consolidated Financial
Statements of the U.S. Department of Labor.

Accounting principles generally accepted in the United States of America encompass both accrual and budgetary
transactions. Under accrual accounting, revenues are recognized when earned, and expenses are recognized when a
liability is incurred. Budgetary accounting facilitates compliance with legal constraints on, and controls over, the use of
federal funds. These financial statements are different from the financial reports, also prepared for the Fund pursuant to
OMB directives, used to monitor the Fund’s use of budgetary resources.


                                                          III - 1



22                                                                M.D. Oppenheim & Company, P.C., for the
                                                      U.S. Department of Labor—Office of Inspector General
                                                                          Report Number: 22-06-009-04-432
                                            DCCA Financial Statements and Independent Auditors’ Report

                                   DISTRICT OF COLUMBIA WORKMEN’S
                                    COMPENSATION ACT SPECIAL FUND

                                  NOTES TO THE FINANCIAL STATEMENTS
                                 For the Years Ended September 30, 2005 and 2004

C.       Funds with U.S. Treasury

The Fund does not maintain cash in commercial bank accounts. Cash receipts and disbursements are processed by the
U.S. Treasury. The Funds with U.S. Treasury are trust funds that are available to pay current liabilities and finance
authorized purchase commitments.

D.       Investments

Investments in U.S. Government securities are reported at cost, net of unamortized premiums or discounts, which
approximates market value. Premiums or discounts are amortized on a straight-line basis, which approximates the
effective interest method. The Fund's intent is to hold investments to maturity, unless they are needed to finance claims
or otherwise sustain the operations of the Fund. No provision is made for unrealized gains or losses on these securities
because, in the majority of cases, they are held to maturity.

E.       Accounts Receivable, Net of Allowance

The amounts due as receivables are stated net of an allowance for uncollectible accounts. The allowance is estimated
based on past experience in the collection of the receivables and an analysis of the outstanding balances. Also included
as benefit overpayments receivable are Fund benefit overpayments made to individuals primarily from awarded
compensation orders and corrections of payment computations.

F.       Accrued Benefits Payable

The District of Columbia Workmen’s Compensation Special Fund provides compensation and medical benefits for pre
July 26, 1982, work related injuries to employees of the District of Columbia. The Fund recognizes a liability for
disability benefits payable to the extent of unpaid benefits applicable to the current period.

G.       Assessment Overpayment by Carriers

Assessment overpayments are current liabilities and are to be refunded upon insurance carrier or self-insured employer’s
request or applied to reduce future assessments.

H.       Deferred Revenue

Deferred revenues represent the unearned assessment revenues as of September 30, the Fund's accounting year end. The
annual assessments cover a calendar year and, accordingly, the portion extending beyond September 30 has been
deferred.

I.       Financing Sources Other Than Exchange Revenue

Non-exchange revenues arise from the Federal government’s power to demand payments from and receive
donations from the public. Non-exchange revenues are recognized by the Fund for assessments levied against the
public and interest income from investments.

The Fund’s primary source of revenue is annual assessments levied on insurance carriers and self-insured
employers. The Fund also receives interest on Fund investments and on Federal funds in the possession of non-
Federal entities.

                                                         III - 2




M.D. Oppenheim & Company, P.C., for the                                                                             23
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-009-04-432
DCCA Financial Statements and Independent Auditors’ Report

                                     DISTRICT OF COLUMBIA WORKMEN’S
                                      COMPENSATION ACT SPECIAL FUND

                                    NOTES TO THE FINANCIAL STATEMENTS
                                   For the Years Ended September 30, 2005 and 2004

NOTE 2 - FUNDS WITH U.S. TREASURY

Funds with the U.S. Treasury at September 30, 2005 and 2004 consisted of cash deposits of $2,066,020 and $2,267
respectively. There was $408 in cash deposits at September 30, 2005 and $141 in cash deposits at September 30, 2004
being held as security by authority of Section 32 of the Longshore and Harbor Workers' Compensation Act in the Funds
with the U.S. Treasury balance. Section 32 funds relate to the default of self-insured employers and are available for
payment of compensation and medical benefits to covered employees of the defaulted companies.

Funds with U.S. Treasury at September 30, 2005 consisted of the following:

                                                Entity Assets
                    Unobligated      Unobligated       Obligated
                     Balance          Balance         Balance Not            Total       Non-entity
                     Available       Unavailable     Yet Disbursed       Entity Assets     Assets             Total

Special Fund    $              0     $          0     $   2,066,020       $ 2,066,020     $           0   $ 2,066,020

Funds with U.S. Treasury at September 30, 2004 consisted of the following:

                                                 Entity Assets
                    Unobligated      Unobligated       Obligated
                      Balance          Balance         Balance Not          Total        Non-entity
                     Available       Unavailable     Yet Disbursed       Entity Assets     Assets             Total

Special Fund    $              0     $          0     $        2,267      $      2,267    $           0   $      2,267


NOTE 3 - INVESTMENTS

Investments at September 30, 2005 and 2004 consisted of the following:

                                                                       September 30, 2005
                                                      Face                  Net           Market
                                                     Value               Discount         Value               Value

Intragovernmental securities
  Marketable                                        $ 3,000,000          $       0       $3,000,000        $3,000,000

                                                                           September 30, 2004
                                                      Face                 Net            Market
                                                     Value        Discount Value            Value

Intragovernmental securities
  Marketable                                        $ 5,020,000         $ (13,056)       $5,006,944       $ 5,006,944


                                                          III - 3



24                                                                 M.D. Oppenheim & Company, P.C., for the
                                                       U.S. Department of Labor—Office of Inspector General
                                                                           Report Number: 22-06-009-04-432
                                               DCCA Financial Statements and Independent Auditors’ Report

                                   DISTRICT OF COLUMBIA WORKMEN’S
                                    COMPENSATION ACT SPECIAL FUND

                                 NOTES TO THE FINANCIAL STATEMENTS
                                For the Years Ended September 30, 2005 and 2004

NOTE 3 – INVESTMENTS – Continued

Investments of $51,300 and $50,400 at September 30, 2005 and 2004, respectively are being held as security by
authority of Section 32 of the Longshore and Harbor Workers' Compensation. Section 32 investments relate to the
default of self-insured employers and are restricted. These investments are available for payment of compensation and
medical benefits to covered employees of the defaulted companies. Investments at September 30, 2005 and 2004 consist
of overnight securities and short-term U.S. Treasury Bills stated at amortized cost which approximates market
respectively. Investments at September 30, 2005, bear an interest rate of 3.46% compared to rates varying from 1.32%
to 1.79% for 2004. Interest rates on securities bought and sold during fiscal year 2005 ranged from 1.32% to 3.67%
compared to 0.89% to 1.79% for fiscal year 2004.

NOTE 4 - ACCOUNTS RECEIVABLE, NET

Accounts receivable at September 30, 2005 and 2004 consisted of the following:

                                                                                  2005                  2004

Entity assets
  Benefit overpayments                                                           $ 15,584             $ 19,250
  Assessments receivable                                                           496,452              361,032
  Less: allowance for doubtful accounts                                          (128,009)             (100,623)

      Total accounts receivable, net                                          $ 384,027              $ 279,659

Assessments receivable represent the unpaid annual assessments from the current and prior years. Accounts receivable
from overpayments to claimants arise primarily from amended compensation orders and corrections of payment
computations. These receivables are being primarily recovered by partial and total withholding of benefit payments.

Changes in the allowance for doubtful accounts during FY 2005 and FY 2004 consisted of the following:

                                                                       2005
                                            Allowance        Write         Revenue                   Allowance
                                               9-30-04        Offs       Adjustment       Bad Debt      9-30-05
Entity assets
  Benefit overpayments                      $ (4,812)    $         0      $        0      $    916 $ (3,896)
  Assessment receivable                       (95,811)             0        (21,255)       (7,386)   (124,113)
                                           $ (100,613)   $         0      $ (21,255)     $ (6,470) $ (128,009)

                                                                       2004
                                            Allowance        Write         Revenue                   Allowance
                                               9-30-03        Offs       Adjustment       Bad Debt      9-30-04
Entity assets
  Benefit overpayments                 $       (7,047)   $      -        $         -       $ 2,235 $ (4,812)
  Assessment receivable                        (4,692)    101,531          (185,603)        (7,047)    (95,811)
                                       $      (11,739)   $101,531        $ (185,603)      $ (4,812) $ (100,623)

                                                         III – 4



M.D. Oppenheim & Company, P.C., for the                                                                            25
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-009-04-432
DCCA Financial Statements and Independent Auditors’ Report

                                    DISTRICT OF COLUMBIA WORKMEN’S
                                     COMPENSATION ACT SPECIAL FUND

                                   NOTES TO THE FINANCIAL STATEMENTS
                                  For the Years Ended September 30, 2005 and 2004

NOTE 5 – OTHER LIABILITIES

Other liabilities at September 30, 2005 and 2004 consisted of the following current liabilities:

                                                                             2005                           2004
Other liabilities
  Assessment overpayments by carriers                                       $ 420,240                     $1,166,849
  Defaulted employer liability
    Held in investments                                                         51,300                       50,400
    Held in cash                                                                   408                          141
                                                                                51,708                       50,541

  Total other liabilities                                                   $ 471,948                     $1,217,390

Assessment overpayments are to be refunded upon request or applied to reduce future assessments.

Defaulted employer liability relates to the funds and investments held by the District of Columbia Special Fund which
are being held as security by authority of Section 32 of the Act. These funds and investments are available for
compensation and medical benefits to covered employees of the defaulted companies. Management estimates that these
funds and investments held will be sufficient to cover the future benefits associated with the covered employees.


NOTE 6 – STATEMENT OF BUDGETARY RESOURCES

A. Apportionment Categories of Obligations Incurred

Obligations incurred reported on the Statement of Budgetary Resources in FY 2005 and FY 2004 consisted of the
following:

                                                                         2005                      2004

Direct Obligations
  Exempt from apportionment                                          $ 10,577,595          $ 10,807,202




                                                           III – 5



26                                                                 M.D. Oppenheim & Company, P.C., for the
                                                       U.S. Department of Labor—Office of Inspector General
                                                                           Report Number: 22-06-009-04-432
                                          DCCA Financial Statements and Independent Auditors’ Report

                                  DISTRICT OF COLUMBIA WORKMEN’S
                                   COMPENSATION ACT SPECIAL FUND

                                 NOTES TO THE FINANCIAL STATEMENTS
                                For the Years Ended September 30, 2005 and 2004


NOTE 6 – STATEMENT OF BUDGETARY RESOURCES - Continued

B. Explanation of Differences Between the Statement of Budgetary Resources and the Budget of the United
States Government

The Budget of the United States Government with actual amounts for the year ended September 30, 2005, has not been
published as of the issue date of these financial statements. This document will be available in February 2006. In,
addition, the reconciliation of the Report of Budget Execution (SF133) and the Statement of Budgetary Resources will
be performed in FY 2006 after the Department receives the final SF133 reports from Trust Fund and allocated accounts.

A reconciliation of budgetary resources, obligations incurred and outlays, as presented in the Statement of Budgetary
Resources to amounts included in the Budget of the United States Government for the year ended September 30, 2004 is
shown below:


                                                                                  2004

                                                                Budgetary     Obligations
(Dollars in Millions)                                           Resources       Incurred           Outlays

Statement of Budgetary Resources                           $          16      $          11       $      11

   Longshore and Harbor Workers Compensation                $        203      $          136       $    135

Budget of the United States Government                      $        219      $          147       $    146




                                                       III -6




M.D. Oppenheim & Company, P.C., for the                                                                         27
U.S. Department of Labor—Office of Inspector General
Report Number: 22-06-009-04-432
